HHS/OIG - Audit,"Improper Fiscal Year 2001 Medicare Fee-for-Service Payments,"(A-17-01-02002)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Improper Fiscal Year 2001 Medicare Fee-for-Service Payments," (A-17-01-02002)
February 21, 2002
Complete
Text of Report is available in PDF format (481 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out the results of our review of Fiscal Year (FY)
2001 Medicare fee-for-service claims. Based on our statistical sample, we estimate
that improper Medicare benefit payments made during FY 2001 totaled $12.1 billion,
or about 6.3 percent of the $191.8 billion in processed fee-for-service payments
reported by the Centers for Medicare and Medicaid Services (CMS). These improper
payments, as in past years, could range from reimbursement for services provided
but inadequately documented to inadvertent mistakes to outright fraud and abuse.
The FY 2001 estimate of improper payments is almost half the $23.2 billion
that we first estimated for FY 1996. As a rate of error, the current 6.3 percent
estimate is the lowest to date, less than half the 13.8 percent reported for
FY 1996.  Since we developed the first error rate for FY 1996, CMS has
demonstrated continued vigilance in monitoring the error rate and developing
appropriate corrective action plans. For example, CMS has worked with provider
groups, such as the American Medical Association and the American Hospital
Association, to clarify reimbursement rules and to impress upon health care
providers the importance of fully documenting services. Such efforts have contributed
to the large reduction in the rate.  However, continued vigilance is needed
to ensure that providers maintain adequate documentation supporting billed
services, bill only for services that are medically necessary, and properly
code claims. These problems have persisted for the past 6 years.